foregoing '13oVe-:.isati!ue,:anddorrect under the penalty of perjury.
Executed on this 16th day of September 2021.

Je ry Lee Canfield
TDCJ# 01848978
H.H. Coffield Unit
2661 F.M. 2054
Tennessee Colony, TX 75884-5000
Pro se Litigant
No Email or Phone

CERTIFICATE OF SERVICE:
The undersigned Petitioner certifies that one (1) true and correct copy of the foregoing, Motion for an Extension of time to file
Writ of Certiorari for the Petitioner, has been sent via United
States Postal Service, first-class,and;- postage prepaid, with certified mail return receipt requested and addressed to the Assistant
Attorney General of Texas stated below on this 16th day of September 2021.
Casey Leigh Jackson Soloman
Assistant Attorney General of Texas
P.O. BOX 12548; Capitol Station
Austin, Texas 78711-2548
*Lead Counsel for the Respondent, Bobby Lumpkin*
I, Jerry Lee Canfield, TDCJ# 01848978, Petitioner in the above
-styled and -numbered cause, being incarcerated in the TDCJ-CID
H.H. Coffield Unit in Anderson County, Texas, declares under the
penalty of perjury that the above. Certificate of Service has been
executed on this 16th day of September 2021.

Page 04

Jerry Lee Canfield
TDCJ# 01848978
H.H. Coffield unit
2661 F.M. 2054
Tennessee Colony, TX 75884-5000
Pro se Liitgant
No Email or Phone
DECLARATION OF INMATE FILING:
I am an inmate confiend in an institution. Today, this 16th day
of September 2021, I am depositing the Petitioner's Motion for an
Extension of Time to file his Writ of Certiorari into the instituion's internal mailing system. First-Class postage is being prepaid either by me or by the institution on my behalf. See Houston
v. Lack, 487 U.S. 266, 270 (1988).
I declare under the penalty of perjury that the foregoing above
is true and correct. See 28 U.S.C. ยง 1746; 18 U.S.C. .ยง 1621. Exe:โข
cuted on this 16th day of September 2021.

I? Ivi?C/I-A
err y Lee e nfield
TDCJ# 01848978
H.H. Coffield Unit
2661 F.M. 2054
Tennessee Colony, TX 75884-5000
Pro se Litigant
No Email or Phone

Page 05

